HHS/OIG, Audit -"Aid to Families With Dependent Children Overpayment Recoveries, Commonwealth Of Virginia Department of Social Services,"(A-03-01-00251)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Aid to Families With Dependent Children Overpayment Recoveries, Commonwealth Of Virginia Department Of Social Services," (A-03-01-00251)
March 25, 2003
Complete
Text of Report is available in PDF format (506 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
During the period October 1, 1996 through September 30, 2002 the Commonwealth of Virginia Department of Social Services
(DSS) recovered $3,431,869 in Aid to Families with Dependent Children (AFDC) overpayments and was required to refund federal
financial participation of $1,762,951.  We confirmed that DSS refunded $541,457 in accordance with federal requirements
and did not remit $769,092 to the Department of Health and Human Services, Administration for Children and Families (ACF).  We
found that four additional refunds totaling $452,402 that the DSS attempted to make were never recorded by ACF because
the refund form was inadvertently included by DSS as part of a statistical package and was not processed by ACF.  We
recommend that DSS:  (1) refund the un-remitted federal share of $769,092 to ACF, (2) notify ACF of the attempted
refunds totaling $452,402 that were never recorded and resubmit, if necessary, amended documentation as directed by ACF,
and (3) continue to refund quarterly collected AFDC overpayments as required by federal regulations.